     OFFICE ON VIOLENCE AGAINST WOMEN 

SERVICES, TRAINING, OFFICERS, AND PROSECUTION

            GRANTS AWARDED TO THE 

          COMMONWEALTH OF VIRGINIA 

  DEPARTMENT OF CRIMINAL JUSTICE SERVICES 



             U.S. Department of Justice 

           Office of the Inspector General 

                    Audit Division 



            Audit Report GR-30-10-003 

                    July 2010

        OFFICE ON VIOLENCE AGAINST WOMEN 

  SERVICES, TRAINING, OFFICERS, AND PROSECUTION 

GRANTS AWARDED TO THE COMMONWEALTH OF VIRGINIA 

    DEPARTMENT OF CRIMINAL JUSTICE SERVICES 


                        EXECUTIVE SUMMARY


       The Services, Training, Officers, and Prosecution (STOP) grant
program is administered by the Office on Violence Against Women (OVW) to
promote a coordinated, strategic approach among state, local, and non-
profit organizations that will combat violent crimes against women and
develop and strengthen victim services. All states and territories may
receive STOP funds each year, and the amount of funds each state and
territory receives is determined by a population-based formula. Between
Fiscal Year (FY) 2008 and 2009, the OVW provided the Commonwealth of
Virginia’s Department of Criminal Justice Services (DCJS) with three STOP
awards totaling over $8.8 million. In addition, one of these awards valued
at $3.3 million was provided to the DCJS under the American Reinvestment
and Recovery Act of 2009.

      As the agency that administers STOP program activities throughout
Virginia, the DCJS used STOP funds to provide 228 subgrants to over 100
state, local, and nonprofit organizations to enforce laws on violent crimes
against women and to provide services to such victims. We conducted the
audit to determine whether costs the DCJS charged to the STOP awards
were allowable, reasonable, and complied with applicable laws, regulations,
and guidelines.

       The audit found that the DCJS should finalize its risk-assessment
policy so that it can effectively monitor high-risk STOP subgrantees. In
addition, the DCJS used a budget estimating method to allocate costs to the
STOP award. We determined that this method did not meet specific
allocation requirements and therefore the DCJS improperly allocated
$201,499, which we identified as unsupported costs. Furthermore, the DCJS
was unable to meet specific STOP category allocation requirements totaling
$83,429 that help ensure law enforcement agencies and prosecutor offices
receive a certain percentage of subgrantee funds. Lastly, the DCJS did not
use or otherwise make available for subgrants at least $11,963 of its 2008
STOP award. Because the 2008 STOP award period has expired, the audit
identified $95,392 in funds that the OVW should deobligate.
        OFFICE ON VIOLENCE AGAINST WOMEN 

  SERVICES, TRAINING, OFFICERS, AND PROSECUTION 

GRANTS AWARDED TO THE COMMONWEALTH OF VIRGINIA 

    DEPARTMENT OF CRIMINAL JUSTICE SERVICES 


                                   TABLE OF CONTENTS


    INTRODUCTION ............................................................................. 1 

 
          Virginia STOP Awards ................................................................ 1 

          Audit Objective and Approach ..................................................... 2 


FINDINGS AND RECOMMENDATIONS.............................................. 3 


          Monitoring Subgrantees ............................................................. 3 

          Expenditures ............................................................................ 5 

               Salary and Fringe Benefit Costs .......................................... 5 

               Other Direct Costs ............................................................ 7 

               Indirect Costs .................................................................. 7 

               Subgrantee Awards........................................................... 7 

               Expenditure Summary ....................................................... 8 

          Reporting ................................................................................ 8 

          Compliance with Grant Requirements .......................................... 9 

          Recommendations................................................................... 12 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............. 13 


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS.......... 15 


APPENDIX III - OFFICE ON VIOLENCE AGAINST WOMEN 

    RESPONSE TO REPORT RECOMMENDATIONS ........................ 16 


APPENDIX IV - VIRGINIA DEPARTMENT OF CRIMINAL JUSTICE 

    SERVICES RESPONSE TO REPORT RECOMMENDATIONS ....... 19 


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

    REPORT ................................................................................ 22             

                          INTRODUCTION

       The Services, Training, Officers, and Prosecution (STOP) grant
program is administered by the Office on Violence Against Women (OVW) to
promote a coordinated, strategic approach among state, local, and non-
profit organizations that will combat violent crimes against women and
develop and strengthen victim services. All states and territories may
receive STOP funds each year, and the amount of funds each state and
territory receives is generally determined by a population-based formula.
Between Fiscal Year (FY) 2008 and 2009, Congress provided a total of $509
million to the OVW for its STOP award program, including a $175 million
appropriation via the American Recovery and Reinvestment Act of 2009
(Recovery Act).

Virginia STOP Awards

      The Department of Criminal Justice Services (DCJS) distributes federal
and state law enforcement and victims services funds to localities, state
agencies, and nonprofit organizations within the Commonwealth of Virginia.
The DCJS serves as Virginia’s prime recipient of STOP program funds and
uses STOP awards to provide competitive subgrants to over 100 public and
non-profit organizations throughout Virginia.

      DCJS subgrantees should use STOP funds to administer programs that
address violence against women issues in the following statutorily required
areas: local law enforcement, prosecution, courts, non-government service
organizations, or for miscellaneous, program-related funding. As shown by
Table 1, in 2008 and 2009 the DCJS received three STOP awards totaling
over $8.8 million.

        TABLE 1: OVW STOP AWARDS TO THE VIRGINIA DCJS

                                                                  Amount
     Award           Award Number      Start Date    End Date        ($)
2008 STOP           2008-WF-AX-0050    05/01/2008   04/30/2010    $2,647,939
2009 STOP           2009-WF-AX-0037    06/01/2009   05/31/2011    $2,883,237
Recovery Act STOP   2009-EF-S6-0025    05/01/2009   04/30/2011    $3,305,800
                                                        TOTAL    $8,836,976
Source: OVW

      The DCJS used these STOP awards to generate 228 subgrants worth
about $7.8 million that were provided to over 100 different organizations in
Virginia.



                                      1
Audit Objective and Approach

      Considering the purpose and initiatives supported by the award, we
conducted the audit to determine whether costs the DCJS charged to its
2008, 2009, and Recovery Act STOP awards were allowable, reasonable, and
complied with applicable laws, regulations, and guidelines. The OVW
permits prime recipients to use no more than 10 percent of STOP funds to
pay for administrative costs. As of December 2009, the DCJS had not
charged any administrative expenses to either its Recovery Act or 2009
STOP award. Consequently, the audit evaluated administrative costs
charged by the DCJS to its 2008 STOP award.

      We tested whether the DCJS complied with what we considered to be
the most important conditions of the STOP program. Unless otherwise
stated in our report, we applied the Office of Justice Programs Financial
Guide (Financial Guide) as our primary criteria.1 Specifically, we tested
whether the DCJS complied with the following grant requirements:

   	 Monitoring Subgrantees to determine the adequacy of the DCJS’s
      monitoring policies, procedures, and practices.

   	 Expenditures to determine the accuracy and allowability of costs
      charged to the awards and adherence to applicable matching and
      supplanting requirements.

   	 Reporting to determine if the DCJS submitted required Financial
      Status Reports, Progress Reports, and Recovery Act Reports on
      time and whether the reports were accurate.

   	 Compliance with Grant Requirements to determine if the DCJS
      properly allocated the proper percentages of STOP sub-awards to
      the four programmatic categories of recipient organizations.

      We also tested five Virginia subgrantees to ascertain whether each
complied or was positioned to comply with STOP award expenditure,
matching, and reporting requirements. Of the five subgrantees tested,
four had received funds that were derived from the three audited DCJS
STOP awards.2

       1
          The Financial Guide serves as a reference manual to assist grant recipients in their
fiduciary responsibility to safeguard and ensure awarded funds are used appropriately.
       2
        Appendix I provides additional details on our audit’s objective, scope, and
methodology.

                                              2

                 FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

       The DCJS complied in part with STOP program requirements.
       However, we determined that the DCJS needs to finalize its risk-
       assessment policy and ensure that high-risk STOP subgrantees
       receive adequate oversight. Second, because the DCJS used a
       budget estimate to allocate direct and indirect costs, we
       determined that this method did not properly allocate $201,499
       in costs charged to the 2008 STOP award. Third, the DCJS was
       unable to meet specific STOP category allocation requirements
       that ensure law enforcement agencies and prosecutor offices
       receive a certain percentage of subgrantee funds totaling
       $83,429. Fourth, the DCJS did not use or otherwise make
       available for subgrants at least $11,963 of its 2008 STOP award.
       Because the period of the 2008 STOP award has expired, the
       audit identified $95,392 in funds that the OVW should
       deobligate.

Monitoring Subgrantees

      According to the OJP Financial Guide, prime recipients of grant funds
are responsible for ensuring that subgrantees comply with grant conditions
and requirements. DCJS grant monitors oversee subgrantees of Virginia
STOP funds by telephone, e-mail, site visits, and staff meetings with groups
of subgrantees. The purpose of such monitoring activity is to discuss with
subgrantees how they should implement and complete supported projects
and whether project costs are aligning with approved budgets and comply
with grant conditions and regulatory requirements. DCJS’s grant monitoring
policy calls on grant monitors to conduct at least one site visit every four
years on each subgrantee.3 The DCJS requires its grant monitors to compile
a report summarizing their activities on each site visit.




       3
          Subgrantees with continuing awards should receive one site visit every four years
while subgrantees that do not have continuing awards should receive at least one site
visiting during the performance period of each project.



                                             3

      In 2009, the DCJS reorganized its grant monitoring team into a
separate Grants Administration Office. In addition to this reorganization, a
DCJS official stated that during this time grant monitoring staff charged with
overseeing STOP awards decreased from five to three employees. As a
result, the number of subgrantees grant monitors were charged to oversee
increased from an average of 35 to 110 each.

       The DCJS maintained a list of when grant monitors last visited each
subgrantee. We reviewed this list to determine whether the DCJS performed
site visits to every 2008 STOP award subgrantee. Between 2004 and 2009,
DCJS grant monitors visited 57 of 87 2008 award subgrantees. This left 30
subgrantees, or 34 percent of all 2008 STOP award subgrantees, without a
site visit between 2004 and 2009. DCJS officials told us they are planning to
use Recovery Act STOP funds to hire a fourth grant monitor to conduct STOP
reviews and perform additional site visits.

      DCJS monitoring records did not detail which STOP subgrantees may
have been most in need of an on-site monitoring visit to assist with project
implementation and ensure compliance with grant requirements. As a
result, we could not determine whether the DCJS conducted site visits or
other types of monitoring reviews with subgrantees that presented the
highest risk of misusing STOP program funds. Site visits require significant
amount of grant monitor time to complete. In addition, we note that DCJS
grant monitors have not visited 30 of the STOP subgrantees in the past five
years. As a result, we believe the DCJS should begin determining whether
any of its subgrantees present a high-risk of potential misuse of STOP funds.
Such subgrantees may include new organizations that have not received
prior STOP funds; groups that have been delinquent in submitting required
progress and financial reports; and recipients that are administering
complicated, long-term projects.

      During the audit, the DCJS began developing a risk-based monitoring
policy that grant monitors will use to identify subgrantees with performance
discrepancies and those that have particularly large or complex projects.
Other risk factors that the policy plans to consider include whether
subgrantees are financially stable or have a history of adequate project
management. Because the DCJS has already begun drafting a risk-based
policy, we recommend that the OVW ensure that the DCJS: (1) finalizes its
risk-based monitoring policy to identify high-risk subgrantees, and
(2) subsequently schedules monitoring reviews so that identified high-risk
subgrantees receive adequate oversight.




                                      4

Expenditures

       According to the Financial Guide, allowable costs include those
expenses identified by applicable Office of Management and Budget (OMB)
circulars and the grant program’s authorizing legislation. In general, any
cost charged to the grant project must be reasonable, allocable, and
necessary. The DCJS charged the 2008 STOP award salary, overhead, and
indirect costs.

Salary and Fringe Benefit Costs

      To determine whether costs charged to the STOP program grants were
allowable and accurate, we compared DCJS expenditure records to the
$264,794 the DCJS was permitted to use from its 2008 STOP award for
various direct expenses, including salaries. Of this figure, the DCJS used
$140,821 to pay for salaries and associated fringe benefit costs incurred by
its employees. According to OMB Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments, grantees should base salaries and
wages on documented payroll records approved by responsible officials.
When employees work on multiple projects, grantees need to support salary
costs by personnel activity reports compiled by employees and approved by
supervisors that have first-hand knowledge of the work that was performed.

      We reviewed a list of DCJS employees paid with 2008 STOP award
funds and judgmentally selected the salary costs of five employees that were
charged to the grant. For each tested employee, we matched salary costs to
figures recorded in personnel files to verify pay amounts. Because DCJS
employees work on multiple federal and state-funded projects, to verify the
accuracy of salary costs the DCJS charged to the STOP award, we attempted
to trace the percentage of work time spent on grant-related projects to DCJS
accounting records. However, we could not perform this testing because
none of the sampled employees prepared timesheets evidencing the number
of hours each spent working on specific projects. The DCJS charged salary
costs to the STOP award based budget estimates instead of actual time
employees spent on STOP-related projects.

      We discussed this issue with DCJS officials who told us that employees
do not prepare timesheets because the accounting system used by Virginia
does not use timesheets to determine state employee salary payments. The
system instead paid state employees based on duty hours (for example, full-
time or part-time) in lieu of actual hours worked. Consequently, DCJS




                                     5

employees recorded leave approved by their supervisor but not the amount
of time they spent working on each project.4

       OMB Circular A-87 provides that when an employee works on multiple
activities, a distribution of their salary costs must be supported by personnel
activity reports or equivalent documentation to show the time spent working
on each grant or project unless a statistical sampling system or other
substitute system has been approved by the cognizant Federal agency. The
Circular further provides that budget estimates or other distribution
percentages determined before activities are performed cannot qualify as
support for cost distributions made to federal awards. Instead, grant
recipients should only use estimates for interim accounting purposes and
any estimates need to be revised quarterly and adjusted appropriately
before the costs are finalized.

       DCJS employees administer several types of law enforcement and
public safety grants in addition to STOP awards and work on other federal or
state grant programs concurrently. When salary costs are incurred by work
performed on different projects, salary costs cannot be based on budget
estimates. This is because budget estimates do not ensure that the DCJS is
using STOP funds to pay the amount of state-level salary costs incurred by
administering the STOP program. Under OMB Circular A-87, the salary costs
charged to each project instead need to be based on time or other type of
activity reports. Because the budget estimate the DCJS used to allocate
funds was based on funding percentages and not actual time spent on
projects, the method used by the DCJS did not properly allocate salary costs
to the 2008 STOP award. As a result, we question $140,821 in salary and
associated fringe benefit expenses as unsupported costs.

      DCJS officials said that employees will be required to complete activity
reports that track the time each spend performing activities on each grant
program. These officials also said that future STOP program costs will be
allocated to OVW grants based on the activity reports. Therefore, we
recommend that the OVW ensure that the DCJS implements a procedure
that requires employees to track time spent on projects and allocates future
STOP salary costs based on these activity reports.



      4
         The Virginia State Comptroller's Office uses the Commonwealth Integrated Payroll
and Personnel System (CIPPS) and the Commonwealth Accounting and Reporting System
(CARS) to record and process state employee salary payments. We confirmed that CIPPS
and CARS do not permit the use of actual hours worked to allocate payroll costs.



                                            6

Other Direct Costs

      The DCJS charged $22,581 in other direct costs to the 2008 STOP
award. We selected a judgmental sample of 25 other direct cost
transactions that totaled $19,365, or 86 percent of the total amount of other
direct charges. The sample included the 14 highest-dollar other costs
charged to the grant. We tested each of these expenditures for adequate
documentation that included proof of purchase, payment, receipt,
accounting, and proper use.

       Our testing revealed that 7 of the 25 sampled costs totaling $634
were properly supported and allocated to the 2008 award. The DCJS
charged the remaining 18 sampled expenditures, valued at $18,732, to the
grant based on a pro-rated basis. Many of these pro-rated costs were
associated with rent, computer services, and supplies. According to DCJS
officials, the pro-rated charges were based on the same budget estimates
used to allocate salary costs. As a result, we determined that the DCJS did
not properly allocate the pro-rated charges to the 2008 award and question
$18,732 as unsupported costs.

Indirect Costs

      The DCJS charged the 2008 STOP award $41,946 in indirect costs to
pay for centralized state services incurred by the DCJS as a state
government agency. Virginia billed the DCJS for the use of various
statewide services such as information technology, accounting and payroll
systems, and facility costs. Although the DCJS charged these statewide
service costs to the 2008 award on an indirect rate, the DCJS based the
indirect rate on estimated percentages of full-time employee activity.
Because DCJS employees did not maintain activity reports, we cannot
determine whether the DCJS properly allocated indirect costs to the 2008
award. Therefore, we determined that the indirect costs were unsupported
and question $41,946 in indirect costs allocated to the grant.

Subgrantee Awards

     As part of our transaction testing we judgmentally selected five
subgrantees throughout Virginia for additional review.5 The subgrantees


      5
        We judgmentally selected one subgrantee from the three-highest valued subgrants
the DCJS provided under the primary STOP program categories: (1) courts,
(2) prosecutors, (3) law enforcement, (4) non-governmental service providers, and
(5) miscellaneous.

                                           7

selected were: (1) the Virginia Supreme Court, (2) the Loudoun County
Commonwealth’s Attorney’s Office, (3) the Stafford County Sheriff’s Office,
(4) Hampton Transitions, and (5) the Bedford Department of Social Services.
For each subgrantee, we evaluated expenses, Recovery Act reporting, and
matching requirements at each of these subgrantees.

      We determined that subgrantee performance and financial reporting
were timely, required Recovery Act reporting was accurate, and matching
costs were allowable where required. All five subgrantee expenses charged
to respective subgrants were allowable and allocated properly.

Expenditure Summary

       Because the DCJS improperly allocated various costs to the 2008 STOP
award based on budgeted estimates, we recommend that the OVW remedy:
(1) $140,821 in unsupported salary and fringe benefit costs; (2) $18,732 in
unsupported other direct costs; and (3) $41,946 in unsupported indirect
costs.

Reporting

      STOP grantees are to submit both financial and annual program
progress reports to the OVW. Once submitted, these reports allow OVW
grant monitors to keep up to date on the status of awards and progress
reports present information relevant to the achievements of a specific
program or project.

      A Financial Status Report (FSR) should detail the actual expenditures
incurred for the quarterly reporting period and be cumulative for the life of
the award. According to the OJP Financial Guide, FSRs are due within 45
days of the end of each quarterly reporting period. We reviewed the FSRs
submitted by the DCJS for the STOP awards and found that they were
accurate and generally submitted on time.

       Prime recipients of Recovery Act funds must also collect and report job
data from all subgrantees on a quarterly basis. The DCJS developed a form
for its subgrantees to use to report job activity each quarter. The DCJS, in
turn, entered subgrantee data on the FederalReporting.gov website. We
determined STOP subgrantees submitted Recovery Act data to the DCJS on
time. Our testing found that the data the subgrantees transmitted to the
DCJS was generally accurate. We also determined that the DCJS entered
the subgrantee data timely and accurately onto the Recovery Act website.


                                      8

       According to award conditions, the DCJS must additionally submit
annual progress reports to the OVW for each active award as well as a final
report to close out each grant. Consistent progress reporting helps ensure
that the OVW can monitor and observe current award activity. The OVW
also requires that an Administrator’s Report be submitted annually 90 days
after the end of the calendar year. By December 31, 2009, none of the
audited awards had yet reached the point where a progress report was
required.

Compliance with Grant Requirements

      STOP grantees must allocate not less than 25 percent of the amount of
each award for law enforcement, 25 percent for prosecutors, 30 percent for
victim services, and 5 percent for courts.6 Although neither the statute nor
OVW guidance indicate that grantees apply the allocation percentages to
awards after subtracting administrative costs, by long-standing practice, the
DCJS has awarded subgrants based on the amount of STOP funds remaining
after withholding the maximum amount permitted for administrative
expenses.7 STOP authorizing legislation provides only that the allocations be
made “of the amount awarded,” which indicates that administrative
expenses should be withheld from the 15 percent amount of award funds
that need not be allocated to law enforcement, prosecutors, victim services,
and courts. However, OVW grant conditions specifically permit the DCJS to
charge up to 10 percent of the award for administrative expenses.

      Not counting administrative costs, we determined that the DCJS did
not fully comply with program allocation requirements for the 2008 STOP
award. While the DCJS generally provided sufficient funding to the Victim
Services and Courts categories, the DCJS did not allocate the minimum
percentage of award funds, as required by STOP program legislation, to two
categories: law enforcement and prosecution. As demonstrated by Table 2,
the DCJS should have used an additional $83,429 of its STOP award to
provide the required amount of subgrant funds to groups within these two
categories.




       6
           42 U.S.C. § 3796gg-1 (2008)
       7
        Operational and administrative expenses include the salaries, fringe benefits,
equipment, office space rent, travel costs, and associated overhead for the portion of time
that DCJS employees work on the STOP program.

                                             9

                    TABLE 2: 2008 STOP AWARD ALLOCATIONS BY PROGRAM CATEGORY 


                                        Actual                        Required Allocation            Did DCJS
                                             Percent of                                            comply with
                                               amount                                                  STOP          If no,
                                            reserved for                                            allocation     amount of
                                  Total       subgrant          Total                             requirements?     shortfall
    Program Category               ($)        awards*            ($)                Percent         (Yes/No)          ($)
                                                                              Minimum of 25
Law Enforcement Subgrants          553,987        23                                                    No               (41,799)
                                                                  595,786     percent
                                                                              Minimum of 25
Prosecution Subgrants              554,156        23                                                    No               (41,630)
                                                                  595,786     percent
                                                                              Minimum of 5
Court System Subgrants             117,754        5                                                     Yes                  n/a
                                                                  119,157     percent
                                                                              Minimum of 30
Victims Services Subgrants         754,433        32                                                    Yes                  n/a
                                                                  714,944     percent
Miscellaneous                      307,423        13                      n/a n/a                       Yes                  n/a
                                                                           Maximum of 10
Administrative                     264,794       n/a               264,794 percent                      Yes                  n/a

Unawarded                           95,392       n/a                      n/a n/a                       n/a                  n/a
                 TOTALS $ 2,647,939                                                                                $ (83,429)
 Sources: STOP Program authorization statutes and OIG assessment of DCJS financial records
            *
 Notes:          We used the total grant amount minus the amount the DCJS reserved for administrative costs to compute
                 actual and required category percentages.




                                                               10 

       We asked DCJS officials why the 2008 award did not make a sufficient
amount of funds available for subgrants within the law enforcement and
prosecution categories. DCJS officials told us that they did not receive a
sufficient amount of STOP funding requests from law enforcement and
prosecuting agencies. In addition, because one subgrantee declined to
receive an award of more than $20,000, the DCJS was not able to re-award
these funds during that year.

      According to OVW program guidance, any categorical shortfall in
awards should revert to the OVW at the end of award period. Because the
DCJS has not used $83,429 in 2008 STOP award funds to provide subgrants
to law enforcement agencies and prosecution offices, and the grant expired
on April 30, 2010, we recommend that the OVW deobligate these funds.

       By May 2010, the DCJS had not awarded or otherwise used $95,392
from its 2008 STOP award. DCJS officials told us that they plan to award
any remaining funds during the next subgrantee award cycle whenever STOP
award funds are not spent or awarded. However, under STOP program
rules, prime recipients have two years from the award date to make
subgrants or otherwise use the funds to fulfill program objectives. This
meant that the DCJS had until April 30, 2010 to use 2008 STOP award
funds. Considering our prior recommendation regarding the $83,429
shortfall in subgrantee awards by category, we recommend that the OVW
deobligate $11,963, the difference between the amount of 2008 STOP award
funds remaining and the shortfall.




                                    11 

Recommendations

    We recommend that the OVW:

    1.	   Ensure that the DCJS: (1) finalizes its risk-based monitoring
          policy to identify high-risk subgrantees, and (2) subsequently
          schedules monitoring reviews so that identified high-risk
          subgrantees receive adequate oversight.

    2.	   Remedy: (1) $140,821 in unsupported salary and fringe benefit
          costs; (2) $18,732 in unsupported other direct costs; and
          (3) $41,946 in unsupported indirect costs.

    3.	   Ensure that the DCJS implements a procedure that requires
          employees to track time spent on projects and allocates future
          STOP salary costs based on these activity reports.

    4.	   Deobligate $83,429 in 2008 STOP award funds that have not
          been used to make the required amount of subgrants to law
          enforcement agencies and prosecutor offices.

    5.	   Deobligate $11,963 in 2008 STOP award funds that the DCJS
          has not spent or otherwise made available to STOP program
          subgrantees.




                                   12 

                                                                APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether costs the Virginia
Department of Criminal Justice Services (DCJS) charged to its 2008, 2009,
and Recovery Act STOP awards were allowable, reasonable, and complied
with applicable laws, regulations, and guidelines.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. Unless otherwise specified, our audit generally covered activities
that occurred between the inception of each grant through December 31,
2009. The awards audited were numbered 2008-WF-AX-0050,
2009-WF-AX-0037, and 2009-EF-S6-0025.

      We tested compliance with what we considered to be the most
important conditions of the STOP awards. Unless otherwise stated in our
report, the criteria we audited against were contained in the 2009 edition of
the OJP Financial Guide. We tested DCJS award activities in the following
areas: internal controls, drawdowns, grant expenditures, indirect costs,
subgrantee monitoring, reporting, budget management, and compliance with
STOP program requirements.

      The Auditor of Public Accounts of the Commonwealth of Virginia
conducted an independent audit under the provisions of OMB Circular A-13,
Audits of States, Local Governments, and Non-Profit Organizations (2003).
The Single Audit, issued June 30, 2008, identified certain internal control
weaknesses and made recommendations regarding improving information
security systems and documenting grant monitor progress reports before
releasing payments in unrelated programs. The DCJS agreed with the Single
Audit recommendations and has agreed to address the internal control
matters presented by the Single Audit.

      Although we performed limited testing of source documents to assess
the accuracy of reimbursement requests and financial status reports, we did
not test the reliability of the financial management system as a whole. In
addition, our audit included assessing how the DCJS used the


                                      13 

Commonwealth Integrated Payroll and Personnel System (CIPPS) and the
Commonwealth Accounting and Reporting System (CARS) to record and
process salary payments. DCJS officials told us that CIPPS and CARS do not
consider the use of actual hours worked by salaried employees to allocate
payroll costs. We did not assess the reliability of data captured by either of
these systems. However, based on these discussions, we found that the
DCJS instead allocated salary costs based on an estimated pro-ration of
hours worked on projects.

       In conducting our audit, we performed sample testing in 4 areas for
the FY 2008 STOP award. These areas were drawdowns, grant
expenditures, matching costs, and property management. Our expenditure
testing was conducted by judgmentally selecting a sample of costs incurred
for the grants that we audited. We applied the judgmental sampling to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. The non-statistical sample design
does not allow projection of the test results to all grant expenditures. For
each subgrantee, we reviewed and evaluated the: (1) internal control
environment, (2) grant expenses, (3) Recovery Act reporting, (4) matching,
(5) supplanting, and (6) program performance

      We also tested a judgmental sample of subgrantee expenditures
charged by five DCJS subgrantees against the 2008 award: (1) the Virginia
Supreme Court in Richmond, Virginia; (2) the Loudoun County
Commonwealth Attorney in Leesburg, Virginia; (3) the Stafford County
Sheriff’s Office in Stafford, Virginia; (4) the Bedford Department of Social
Services in Bedford, Virginia; and (5) Hampton Transitions in Hampton,
Virginia. Our subgrantee testing was limited to assessing the allowability
and support of subgrantee costs charged to the FY 2008 STOP award
because all subgrantees incurred charges to this grant. Our non-statistical
sample design did not allow projection of the test results to the universes
from which the samples were selected.

      To assess the timeliness of DCJS grant reporting, we relied upon and
reviewed electronically generated data found in the OJP’s Grants
Management System (GMS).




                                      14 

                                                                         APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

DOLLAR-RELATED FINDING                               AMOUNT ($)              PAGE

QUESTIONED COSTS*:

     Unsupported administrative salary and                  140,821               6
     fringe benefit costs

     Unsupported other direct                                 18,732              7
     administrative costs

     Unsupported indirect administrative                      41,946              7
     costs

SUBTOTAL QUESTIONED COSTS:                                $201,499


FUNDS TO BE PUT TO A BETTER USE**:

       2008 STOP award shortfalls in required                83,429             11
       funding categories of subgrants

       2008 STOP award funds not awarded                     11,963             11
       as subgrants

SUBTOTAL TOTAL FUNDS TO BETTER USE:                         $95,392

TOTAL DOLLAR-RELATED FINDINGS:                           $296,891




       *
         Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questions costs may be remedied by the
offset, waiver, recovery of funds or the provision of supporting documentation.
       **
       Funds to be put to a better use are monies that could be used more efficiently if
management took actions to implement and complete audit recommendations.


                                            15 

                                                                          APPENDIX III

                 OFFICE ON VIOLENCE AGAINST WOMEN
               RESPONSE TO REPORT RECOMMENDATIONS



July 9, 2010

MEMORANDUM TO: 	            Troy Meyer
                            Regional Audit Manager
                            Washington Regional Audit Office

FROM: 	                     Susan B. Carbon
                            Director
                            Office on Violence Against Women

SUBJECT: 	                  Response to the Draft Audit Report, Office on Violence
                            Against Women Services, Training, Officers and Prosecution
                            (STOP) Grants Awarded to the Virginia Department of Criminal
                            Justice Services (DCJS).


This memorandum is in response to your correspondence dated May 11, 2010 transmitting the
above draft Follow-Up and Review Investigation report for the DCJS. We consider the subject
report resolved and request written acceptance of this action from your office.

The report contains five recommendations, $201,499 in unsupported costs and $95,392 in unused
funds. The following is our analysis of the audit recommendations.

   1.	 Ensure that the DCJS: (1) finalizes its risked-based monitoring policy to identify
       high-risk sub-grantees, and (2) subsequently schedules monitoring reviews so that
       identified high-risk sub-grantees receive adequate oversight.

       We agree with this recommendation. We will coordinate with the DCJS to obtain a copy
       of procedures implemented to ensure that adequate monitoring policy is implemented to
       address high-risk sub-grantees.




                                             16 

    2.	 Ensure that the DCJS remedy: (1) $140,821 in unsupported salary and fringe
        benefit costs; (2) $19,112 in unsupported other direct costs; (3) $41,946 in
        unsupported indirect costs; and (4) $14,929 in unsupported allocated administrative
        costs incurred by one of its subgrantees, the Supreme Court of Virginia.

        We agree with the recommendation. We will coordinate with DCJS to remedy all
        unsupported costs identified in your report.

    3.	 Ensure that the DCJS implements a procedure that requires employees to track
        time spent on projects and allocates future STOP salary costs based on these activity
        reports.

        We agree with the recommendation. We will coordinate with the DCJS to obtain a copy
        of procedures implemented to ensure that employees track time spent on projects and
        allocate future STOP salary costs are based on these activity reports.

    4.	 Ensure that the DCJS de-obligate $83,429 in 2008 STOP award funds that have not
        been used to make the required amount of sub-grants to law enforcement agencies
        and prosecutor offices.

        We agree with the recommendation. We will coordinate with the DCJS to ensure that the
        $83,429 in 2008 STOP award funds that have not been used to make the required amount
        of sub-grants to law enforcement agencies and prosecutor offices are de-obligated.

    5.	 Ensure that the DCJS de-obligate $11,963 in 2008 STOP award funds that have not
        been spent or otherwise made available to STOP program sub-grantees.

        We agree with the recommendation. We will coordinate with the DCJS to ensure the
        $11,963 in 2008 STOP award funds that have not been spent or otherwise made available
        to STOP program sub-grantees are de-obligated.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional information, please contact Rodney Samuels of my staff at (202)
514-9820.

cc: 	   Kotora Padgett
        Accounting Officer
        Office on Violence Against Women (OVW)

        Richard P. Theis 

        Assistant Director

        Audit Liaison Group 

        Justice Management Division 





                                              17 

Myrta Charles
Program Specialist
Office on Violence Against Women

Omar Mohammed
Program Specialist
Office on Violence Against Women




                                   18 

                                                                                APPENDIX IV

 VIRGINIA DEPARTMENT OF CRIMINAL JUSTICE SERVICES
       RESPONSE TO REPORT RECOMMENDATIONS

                                              June 30, 2010

Mr. Troy M. Meyer
Regional Audit Manager
US Department of Justice
Office of the Inspector General
1300 North 17th Street
Arlington, VA 22209

Dear Mr. Meyer:

I am writing in response to the findings in the draft audit report of May 24, 2010 and amended on
June 18, 2010 on the Office on Violence Against Women (OVW) Services, Training, Officers
and Prosecution grant program awarded to the Virginia Department of Criminal Justice Services
(DCJS).

We have reviewed and prepared a response to each of the noted findings. The findings we do
not dispute are related to the distribution of funds among the required categories and the return of
unspent, un-obligated funds. Both of these items are from the Federal FY2008 grant.

A. Did not meet the required distribution amount of funding for law enforcement agencies
and prosecutors' office.

We attempted to make grants in the law enforcement and prosecution categories during the first
year of the grant cycle and had three unexpected occurrences: one sub-grantee in the law
enforcement category failed to reapply, one sub-grantee in the law enforcement category did not
accept their award and one sub-grantee in the prosecution category declined their award. This
left a balance in the law enforcement and prosecution categories. DCJS awarded funding for a
training initiative in the law enforcem.ent category to further spend down the law enforcement
allocation, but those initiatives were not implemented. A balance was left in these categories at
the end of the grant period.

In the second year of the two-year grant cycle, DCJS received word about STOP Recovery Act
Funding. Intensive work was done subsequently with the state planning team and with the
Virginia Association of Chiefs of Police, the Virginia Sheriffs' Association and the
Commonwealth's Attorneys' Services Council to stimulate new applications for both regular
STOP funding and Recovery Act STOP funding.




                                                19 

We were successful in this effort and can report that all funds in all categories have been
awarded for the current two-year cycle and for the Recovery Act allocation.

B. De-Obligate unspent Federal FY2008 STOP funds not spent that were not distributed to
grantees.

We were unable to distribute these funds to grantees and these funds will be returned.

C. Finalize risk-based grant monitoring policy.

The Department is in the process of reviewing the final draft of our risk-based grant monitoring
policy and should have it implemented in the first month of state FY2011. As a note, the policy
has been used on a trial run basis for the past three months. We have made adjustments to the
tool during this period. Overall we believe it wil1 enhance our grant monitoring capabilities.

D. DCJS should implement a time tracking system to account for time spent working on
the STOP program.

DCJS will implement a time accounting system in July 2010 for the start of state FY2011. All
employees paid from federal funds will complete a time record. STOP administrative costs will
be allocated based on these time accounting reports.

E. Remedy: Unsupported salary and fringe benefit costs, $140,821; unsupported other
direct costs, $18,732; unsupported indirect costs, $41,946.

We believe the personnel and non-personnel services costs to support the Federal FY2008 and
2009 STOP grants covered by the audit are supported with the documentation we have gathered
from that period. While we have acknowledged that we do not have time sheets covering this
period, we do have other significant documentation, including staff activity reports, meeting
minutes, e-mail and phone logs, and grant progress reports to support these expenditures. We
believe this documentation, because of its' detail, provides sufficient documentation of the work
we have performed in effectively managing the STOP program.

Attached are staff activity reports for the STOP program covering the time period of the audit.
These employee activity reports contain information related to their work on the STOP program,
as well as the other programs that they were assigned. The information in the activity reports
shows clearly that there was a significant amount of work being performed on a weekly basis in
support and oversight of the STOP grant program. Additionally, the work was ongoing
throughout the time periods covered by the audit. We believe this is clear documentation of the
work being performed on the STOP grant program and that it supports our contention that the
charges we made to the administrative portion of the grants were appropriate and allowable
under the program.

We have also attached phone and e-mail logs from this time period as additional detail and
documentation of our activities in direct support of our responsibilities of the STOP program.


                                                20 

The STOP annual report is yet another piece of information to support our work on the program.
We submit this report annually to document what we have done the previous year to operate the
program in compliance with the program rules and guidelines. The information in this report is
derived from the grants, training and technical assistance we provide in support of the VSTOP
program.

The overhead costs charged to the STOP grant were al so questioned in the draft audit report.
The acceptance of these charges seems to be related to a timesheet or other time keeping process.
As we have said, we do not have timesheets to document the time spent by staff in support of the
grant and we are instituting a time keeping system for state FY2011, which begins on July 1,
2010. The overhead charges are based on the number or staff paid from the project code we use
to manage the administrative portion of the grant. The information cited above; staff activity
reports, meeting minutes, phone and e-mail logs, and STOP program annual reports, all
document our work in support of the grant program. We believe the process of charging agency
overhead expenses based on those individuals paid from the grant is a documented, consistent
and reasonable way of allocating overhead expenses across the agency's various lines of
business. It will be further documented with the addition of the time keeping system.

In conclusion, we believe we have been good stewards of these funds and have, since its'
inception, run a very effective STOP grant program. The evidence of our efforts is clear; we
solicit and award grant funding to support successful local programs, we provide training
programs to grantees. We provide technical assistance to grantees and we monitor the grants to
ensure compliance with the program. All of this happens because agency staff is performing
these duties throughout the year. We have a good working relationship with the federal Office
on Violence Against Women and. to our knowledge, they are supportive of the way we operate
the STOP program. Our STOP program administrator has been called upon by OVW to mentor
and train new STOP state administrators and participate on national committees working on best
practices in the areas of domestic violence protective orders and sexual assault services. We have
acknowledged that having a time accounting system is needed to better track staff time charged
to grants and are implementing one. But our strength in operating a good and effective grant
program, as demonstrated by our grantees' performance and the services they provide, is the
most accurate test of our overall effort.

The documentation we have cited is being sent under separate cover to John Manning as an e-
mail attachment. If you have any questions, please contact John Colligan at (804) 786-4961.

                                             Sincerely,

                                             Garth L. Wheeler
                                             Director




                                               21 

                                                                APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office on Violence
Against Women (OVW) and the Virginia Department of Criminal Justice
Services (DCJS). The responses are incorporated respectively as Appendices
III and IV of this final report. The following provides the OIG analysis of the
response and summary of actions necessary to close the report.

Summary of Actions Necessary to Close the Report

 1.	 Resolved. The OVW concurred our recommendation to ensure that
     the DCJS: (1) finalizes its risk-based monitoring policy to identify
     high-risk subgrantees, and (2) subsequently schedules monitoring
     reviews so that identified high-risk subgrantees receive adequate
     oversight. This recommendation can be closed when the OVW
     provides evidence that the DCJS is finalizing its risk-based policy and
     schedules monitoring reviews for subgrantees that have been
     designated as high-risk.

 2.	 Resolved. The OVW concurred with our recommendation to remedy:
     (1) $140,821 in unsupported salary and fringe benefit costs; (2)
     $18,732 in unsupported other direct costs; and (3) $41,946 in
     unsupported indirect costs. Considering the federal grant allocation
     requirements cited in the report, this recommendation can be closed
     when the OVW provides documentation that supports or otherwise
     remedies $201,499 in unsupported DCJS administrative costs.

 3.	 Resolved. The OVW concurred with our recommendation to ensure
     that the DCJS implements a procedure that requires employees to
     track time spent on projects and allocates future STOP salary costs
     based on these activity reports. This recommendation can be closed
     when the OVW provides documentation showing that the DCJS has
     implemented such an employee time tracking system.




                                      22 

4.	 Resolved. The OVW concurred with our recommendation to
    deobligate $83,429 in FY 2008 STOP award funds that have not been
    used to make the required amount of subgrants to law enforcement
    agencies and prosecutor offices. This recommendation can be closed
    when the OVW provides documentation showing that it has
    deobligated or otherwise remedied $83,429 in FY 2008 STOP award
    funds that the DCJS did not allocate to required subgrantee categories.

5.	 Resolved. The OVW concurred with our recommendation to
    deobligate $11,963 in FY 2008 STOP award funds that the DCJS had
    not spent or otherwise made available to STOP program subgrantees.
    This recommendation can be closed when the OVW provides
    documentation showing that it has deobligated $11,963 in unspent
    DCJS STOP program funds.




                                   23 

